'.




                                               AUDIT REPORT 


                        LOAN ORIGINATION AND SERVICING PRACTICES 

                                OF NET 1ST NATIONAL BANK 




                                      AUDIT REPORT NUMBER 2-01 


                                                October 29, 2001 





     The finding in this report is the conclusion of the OIG's Auditing Division based on testing of SBA
     operations. The finding and recommendations are subject to review, management decision, and corrective
     action in accordance with existing Agency procedures for follow-up and resolution. This report may contain
     proprietary information subject to the provisions of 18 USC 1905 and must not be released to the public or
     another agency without permission of the Office of Inspector General.
                    u.s. SMALL BUSINESS ADMINISTRATION
                       OFFICE OF INSPECTOR GENERAL 

                            Washington, DC 20416 



                                                                         AUDIT REPORT
                                                                   ISSUE DATE:
                                                                   OCTOBER 29. 2001
                                                                   REPORT NUMBER: 2-01
DATE:          October 29, 2001

TO:           Francisco Marrero
              District Director
              Sjj~ F:Orida District Office


FROM:         ~~e~stant                       Inspector General for Auditing

SUBJECT:      Audit of Loan Origination and Servicing Practices of Net 1st National Bank

       Attached is a copy of the subject audit report. The report contains one finding and eight
recommendations. You agreed with the recommendations and your comments have been
synopsized in the report.

        The findings in this report are the conclusions of the Office ofInspector General's
Auditing Division. The findings and recommendations are subject to review and corrective
action by your office in accordance with existing Agency procedures for audit follow-up and
resolution.

        Please provide your management response to the recommendations within 30 days from
the date ofthis report on the attached Recommendation Action Sheets (SBA Form 1824). The
forms should be sent to:

        Audit Manager
        SBA OIGIAtlanta Field Office, Suite 1803
        233 Peachtree Street, NE
        Atlanta, Georgia 30303

       Any questions you may have regarding this report may be directed to Garry Duncan,
Director, Credit Programs Group, at 202-205-7732.

Attachment
                                                        AUDIT REPORT

                          LOAN ORIGINATION AND SERVICING PRACTICES
                                  OF NET 1ST NATIONAL BANK




                                                        Table of Contents

                                                                                                                          Page

SUMMARy ....................................................................................................................... i


INTRODUCTION

          A. Background........................................................................................................ 1 


          B. Objectives and Scope ........................................................................................ 2 



RESULTS OF AUDIT

Finding and Recommendations

Net 1st National Bank's Loan Processing Practices ............................................................ 3

APPENDICIES

           A- List of Loans Reviewed 

           B- Management Response 

           C- Report Distribution 

                                                 SUMMARY

               A review ofNet 1st National Bank (Net 1st) was made to determine if7(a) loans were
       processed and serviced in accordance with SBA's policies and procedures. In a June 2000
       examination report, the Office of the Comptroller of the Currency (OCC) Examination Report
       identified 12 SBA guaranteed loans that it believed increased the government's risk ofloss. The
       OCC referred this matter to SBA's South Florida District Office who in tum referred the matter
       to the OIG in July 2000 and stated that the bank was materially mismanaging its 7(a) loan
       portfolio. A consent order entered into by the OCC and Net I st subsequent to the start of our
       audit, required the bank to cease making SBA guaranteed loans until its lending, processing, and
       servicing procedures improved. The consent order was lifted in November 2000.

               Our audit efforts confirmed that, prior to the consent order, Net I st was not processing
       and servicing 7(a) loans in accordance with SBA policies and procedures. The bank did not have
       evidence of a comprehensive written SBA lending policy and did not have competent
       experienced lending staff. Both the OCC and we identified numerous deficiencies for loans
       processed prior to execution of the consent order. As a result of the DCC findings, the lender
       took actions to improve its loan processing and servicing practices. However, we noted that
       additional improvements were required. Areas still needing improvement included: (i) equity
       injection documentation; (ii) use ofloan proceeds, (iii) packager and loan service provider
       compensation; and (iv) compensation documentation paid to outside agents.

               We recommend that the District Director, South Florida District Office, require that
       Net 1st make improvements in its lending practices in the areas of equity injection, loan proceeds,
       and compensation paid to outside agents. The District Director agreed with each
       recommendation and notified Net 1st of the corrective actions to be taken.




1-··
                                   INTRODUCTION 

A. Background
       Net 1,I National Bank, a subsidiary of First Telebanc Corporation, is located in
Boca Raton, Florida. The bank became an SBA lender in October 1994 making loans as
a regular and LowDoc lender in 13 SBA districts (New York, Baltimore, Georgia, North
Florida, South Florida, Indiana, Mississippi, Louisiana, DallaslFort Worth, Houston, San
Antonio, St. Louis, and San Francisco).

       On July 6, 2000, the Office ofInspector General received a letter from SBA's
South Florida District Office stating that Net 1st was materially mismanaging its 7(a) loan
program. The district provided a letter from the OCC dated June 20, 2000, along with
excerpts from the most recent OCC examination report referring to 12 SBA guaranteed
loans originated by the bank.

       The district office said there were problems in the following areas:
           •   imprudent lending practices,
           •   loan delinquencies,
           •   non-compliance with the loan authorization,
           •   ineligible use of loan proceeds, and
           •   lack of or misleading documentation.

       On September 25, 2000, Net 1st and the OCC entered into a Consent Order
agreeing not to process SBA guaranteed loans until specific OCC requirements were met.
The loan processing prohibition was lifted in November 2000.

       For the period October 1, 1998, to October 31, 2000, the lender approved 83 SBA
guaranteed loans valued at $42.4 million with government guarantees of$31.1 million.
As of October 31, 2000, 11 ofthese loans were cancelled or paid in full, and 65 were
committed or current, and 7 were troubled (past due, delinquent, or in liquidation).

B. Objectives and Scope

        The objective of the audit was to determine if Net 1st was processing and
servicing 7(a) loans in accordance with SBA policies and procedures. Ifnot, were the
deficiencies material, and what was the cause?

        From the 72 committed, current, and troubled loans in the lender's portfolio at
October 31, 2000, we selected for review 9 loans, 8 of which were cited by the OCC and
1 additional loan based on its troubled status. To verify that the lender had corrected
deficiencies cited by the OCC, we reviewed three of six new loans disbursed during the
period November 2000 to March 2001.

       Audit fieldwork consisted of reviewing SBA and lender loan files and obtaining
information from loan packagers and vendors. We interviewed personnel from the SBA,
OCC, lender, service providers, vendors, and the borrowers. Fieldwork was performed


                                            I

from November 2000 through June 29, 2001. The audit was performed in accordance
with generally accepted Government Auditing Standards.




                                         2

                                   RESULTS OF AUDIT 


FINDING 1 - Net I" National Bank's Loan Processing Practices

              s,
         Net 1 was not processing and servicing 7(a) loans in accordance with SBA
policies and procedures. The OCC identified, and our audit confinned, deficiencies in
the bank's loan processing and deficiencies applicable to specific loans processed prior to
the lifting of an OCC consent order in November 2000. The bank took actions
subsequent to this date to improve loan processing and servicing practices. However, we
noted that improvements were still required. Areas needing improvement included
documentation of: (i) equity injections; (ii) use of loan proceeds, (iii) packagers and loan
service provider use, and (iv) fee compensation paid to outside agents.

a.       Lending Practices Prior to the OCC Consent Order

      Net 1st Bank's lending practices, prior to the OCC Consent Order, did not adhere
to SBA regulations and procedures because of the bank's inadequate internal controls.

Problems Identified by the   aee
        An OCC examination oflending practices disclosed that the bank's underwriting,
ongoing supervision, and administration of its portfolio were highly deficient. The
lender, in the interest of compliance and cooperation with the OCC, signed a Consent
Order to improve its lending procedures. Because of an OCC prohibition on release of
infonnation, we were not able to review the examination report in its entirety. However,
the consent order required the following actions be taken to correct the lender's
deficiencies.

     •   Develop a comprehensive written SBA lending policy and program requiring:
         o 	 loans be underwritten by bank personnel,
         o 	 supporting documentation be obtained and reviewed prior to loan approval,
         o 	 the bank to conduct an independent verification and analysis of borrower
             credit, financial, and other infonnation,
         o 	 appraisals be prepared by bank approved appraisers,
         o 	 the bank to use an independent appraisal and review system.
         o 	 bank personnel to make lending commitments and approve loans, and
         o 	 loan closing agents and attorneys be approved by the bank.
     • 	 Establish a management infonnation system to accurately track loan transactions
         such as payments, status, covenant compliance, or periodic financial statements.
     • 	 Ensure that it has a competent, experienced senior lending officer or sufficient
         lending staff for its SBA loans.
     • 	 All loans prepared by third party loan packagers are pursuant to a written contract
         specifying all conditions, tenns, and prohibitions.




                                             3

       Based on excerpts from their report, the OCC took exception to the way at least
12 ofthe SBA guaranteed loans were processed or serviced. The comments can be
categorized as follows:

   •   Insufficient information in loan files to determine debt service coverage.
   •   Insufficient justification in credit analysis to support the proformas.
   •   In appropriate classification of debt.
   •   Insufficient equity injections.
   •   Uncleared liens.
   •   Failure to use loan proceeds as authorized.
   •   Cash flow problems.
   •   Failure to obtain updated financial statements.

Additional Non-compliances Identified by the OIG Audit

       A review of 8 of the 12 loans referred by the OCC and another pre-consent order
loan confirmed the problems cited in the examination report plus the following additional
non-compliances:

   •   IRS verification of financial data.
   •   Lack of credit reports on principals and existing businesses.
   •   Documentation of senior debt.

      Our audit confirmed that the lender had corrected the problems identified by both
the OCC examination and our review.


b. Lending Practices Subsequent to the Lifting of the OCC Consent Order

         We then reviewed Net 1st lending practices for three of six loans processed after
the lifting of the Consent Order through March 31, 2001. In accordance with the consent
order, the bank had adopted a formal written lending policy manual and established
procedures to monitor, maintain, and improve bank oversight of the SBA loan portfolio.
We found, however, that improvements were still needed for lending practices in four
areas--equity injection documentation, use ofloan proceeds, packager and loan service
provider use, and documentation of compensation paid to outside agents.

           o Inadequate support for cash injections

           The lender had not ensured that the borrowers had injected appropriate cash
           into the business as required by loan authorization agreements for two loans
           requiring injections of[      F)<.. ,t        J One loan file had a "Cash-
           Injection Affidavit" certifYing that the borrower had met the injection
           requirements supported by copies of checks drawn on the borrower's personal
           account. However, neither loan file had cancelled checks, receipts, original
           "stamped" paid invoices, or similar documentation evidencing the required


                                            4

injections were put into the business. Title 13 ofthe Code Federal
Regulations, part 120.150(1) states that SBA will consider (as part of an
applicant's credit worthiness) sufficient invested equity to operate on a sound
financial basis.

 o Monitoring ofloan proceeds not documented

The lender had not obtained appropriate documentation regarding the use of
loan proceeds for the previously mentioned loans. The two loans were
disbursed for [      f><..4-        J respectively. The lender's
documentation did not properly evidence that the disbursed loan funds had, in
fact, been used as required by the loan authorization. SBA Form 1050,
Settlement Sheet, requires the disclosure of the purpose of the loan proceeds
and the name of applicable payees in an effort to monitor the disbursement of
loan funds. SBA procedures are intended to reduce risk and assure that loan
proceeds are used for eligible purposes.

o Improper Use ofPackagers and Lender Service Providers

  Agents were improperly serving as both packagers and lender service
  providers (LSP) on the same loan transactions on 8 of 12 loans reviewed.
  This relationship is barred by Title 13 of the Code of Federal Regulations and
  SOP 50 10 (4)(B), Subpart A, except under very specific circumstances. The
  lender contracted with two LSPs during the period, January 1999 through
  April 2001. The initial LSP, [                10)<, -4                       J
r (;;..  +         "] served as both packager and LSP on the same loan
  transactions from January 1999 through November 1999. A second LSP,
[        !;x·4               -:\ was employed from December 1999 through
  April2001. We confirmed that packaging fees totaling $14,350 and LSP
  payments totaling $204,824 were paid to the agents operating in this dual
  capacity during the review period.

The agents had executed agreements with the lender that clearly state that the
agents were lender or bank service providers and which identified lender
functions to be performed by the agents and the compensation to be provided.
In a letter to the OIG, dated February 9, 2001, the bank's former president
confirmed that the agreements between the lender and its agents gave the
agents authority to operate as a third-party service provider for the bank and to
conduct activities on-behalf of the bank.

While the lender and LSP agents confirmed that fees had been paid, both
entities contend that the agents were actually serving in the capacity as
"referral agents" and not as "LSPs" for the loans in question. In accordance
with 13 CFR, part 103.1, a referral agent is a person or entity who simply
identifies and refers an applicant to a lender or a lender to an applicant. It
defines a LSP as an agent who carries out lender functions in originating,
disbursing, servicing, or liquidating a specific SBA business loan. It also


                                  5

           requires lenders to have written agreements with LSPs governing the
           compensation charged and the services to be rendered. The agreements
           between the agents and Net 1st and the agents' actions met the definition of an
           LSP.

           In addition to the lender's contention that the agents were not serving as LSPs,
           this condition occurred because the South Florida District Office did not use
           information provided to it to identifY the condition. The district was aware of
           the two agents acting as LSPs and, for one, obtained copies of the LSP
           agreements for each loan. The SBA Form 4, submitted with each loan
           application, disclosed the packaging fees received by the agents. The district
           merely had to compare the LSP agreements to the SBA Form 4 to know that
           the agents were acting contrary to SBA regulations.

           o   Lack ofApproved Compensation Agreements

          The lender did not disclose compensation agreements as required by Title 13
          of the CFR. Our review of five loan files disclosed four that had 13 instances
          for which compensation agreements were not submitted for services totaling
          $15,420. The services not disclosed to SBA included real estate appraisals,
          legal services, environmental inspections, broker fees, and packaging services.
          Additionally, in two instances when compensation agreements were provided,
          they did not provide proper itemization to support $7,100 in fees. Each of
          these agreements was for legal services, but was missing the itemization of the
          specific services and the dates and time charged. Without this information,
          SBA was prevented from making an assessment of whether all fees related to
          SBA financial assistance were reasonable.

          Title 13 of the CFR, Part 103.5(a) requires any applicant, agent, or packager
          to execute and provide to SBA a Compensation Agreement, SBA Form 159.
          Further, the Compensation Agreement requires that each charge exceeding
          $1,000 be itemized on a separate schedule, reflecting the date, time, and
          description of services rendered. Part 103.5(b) of the CFR authorizes SBA to
          reduce the charge or refund any amounts charged where SBA deems the
          compensation umeasonable.

        The deficiencies identified by the OCC and the SBA OIG prior to the Consent
Order occurred because Net I st had not established adequate internal controls to ensure
proper loan origination and servicing. Net 1st did not have an internal loan processing
and servicing function, could not provide evidence of formal written loan origination and
servicing policies and procedures, did not have internal personnel experienced with SBA
policies and procedures, and did not adequately review loan packages received from
agents for compliance with SBA policies and procedures. Without these controls, Net 15t
had no way of determining if the efforts of the lender service providers met SBA's
standards.




                                            6

       We recommend that the District Director, South Florida District Office, take the
following actions:

       I.A. 	 Require evidence from Net 1st that borrower financial information has
              been verified with the IRS for all SBA loans approved during the first 6
              months of Fiscal Year 2002.

       I.B. 	 Require Net I st to document that the equity injections for loan numbers
              L       £'/ . 4                "] were placed into the businesses, and to
              provide documentation supporting required equity injections for all loans
              made during the first 6 months of Fiscal Year 2002.

        I.C. 	 Require Net I st to verifY the use of loan proceeds for loan numbers [,:ox."l ']
              [          p". '+            "]' and to provide evidence that it verified the
                use of loans proceeds for all loans made during the first 6 months of Fiscal
                Year 2002.

        I.D. 	 Ensure the applicable loan files and the automated management
               information system are annotated with the applicable deficiency in the
               event the lender cannot verifY the financial information, cannot document
               that the equity injections were placed into the business, or that the loan
               proceeds were used as authorized.

        I.E. 	 NotifY lenders of the prohibition against having agents compensated as
               packagers and LSPs for the same loan transaction.

        l.F. 	   Compare lender service provider agreements to information in loan
                 applications to determine if agents served as both loan packager and LSP
                 on the same transaction. Decline to review loan applications for which
                 this situation occurs.

        I.G. 	 Request that the Administrator suspend the privileges of any agents
               violating the ethical codes contained in CFR, part 103 regarding agents
               conducting business with SBA.

        I.H. 	 Require Net I st to submit SBA Form 159 in accordance with SBA
               requirements.

 Management Comments

       The District Director, South Florida District Office, agreed with the
 recommendations. We attached the District Director's letter, dated
 October 2, 200 I, to the lender requiring it to implement the recommendations.

 Evaluation of Management Comments

        Management's comments and actions are acceptable.


                                              7

Lender Comments

        A copy of the report was provided to the lender and a response was requested. As
of the report issue date no response was received.




                                            8

                                                                         Appendix A


                              LOAN FILES REVIEWED


                                                                                      LOAN
          BORROWER           DISTRICT    LOAN     DISBURSE.       GROSS LOAN          STATUS
                             OFFICE      NUMBER   DATE            AMOUNT              (3/31/01)
              -­
-
    I.

          r                                               -
                                                                          1           Liquidation


2.                                                                                    Liquidation
-                                                         -
    3.                                                                                Liquidation
-                                                         -
4.                   FOiA.     EX.      4~"                                           Past Due
-                                                         -
    5.                                                                                Past Due
-                                                         -
    6.                                                                                Current
-                                                         -
    7.                                                                                Current
-                                                         -
    8.                                                                                Current
-                                                         -
    9.                                                                                Current
-                                                         -   ~

    10.                                                                               Current
---­ '                                                    -
    11.                                                                               Current
-                                                         -
    12.   L                                                                _J         Current


          TOTAL                                                   $8 153700




                                                                       ho:J\ r:;)(.

                                                                          4"'''
                        U.S. SMALL BUSINESS ADMINISTRATION
                           SOUTH FLORIDA DISTRICT OFFICE
                                                   lM
                          100 SOUTH BISCAYNE BOULEVARD, 7 FLOOR 

                                  MIAMI. FLORIDA 33131·2011 
                     APPENDlXB
                         TELEPHONE (305) 536-5521  FAX (3051 536-5058




       October 2, 2001

       Jackie' J. Roesser, Acting President
       Net 1" National Bank
       529S'Town Center Road
       Boca Raton, fl ~e'6

       Re: Audit Report - Office of the Inspector General

       Dear Ms. Roesser,

       I have been provided with a copy of the audit report of the banks SBA loans
       that were reviewed by the staff of the Office of the Inspector General (OIG).
       This report recommends that District personnel take seve.ral remedial actions
       to ensure compliance with SBA policy and regulations. Below please find a
       summation of the recommendations, some of which require your timely reply
       and others will be requirements implemented for • certain period of time.

       1. 	 During the first six (6) months of this fiscal year (10/1/0' to 3/31/02) an
            applications submitted to the District Office and to the LowDoc Center
            must be accompanied by IRS transcripts which were received pursuant
            to requests via IRS Form 4506. Loans presented without these
            transcripts will not be processed.

        2. 	 Please provide to this office the necessary documentation to support
             equity Injections for loans c:.          lOX. 4-                 J During
             the first six (6) months of this fiscal year (1011/01 to 3131/0'2) it will be
             requlre~ th-~ tne bank provide.documentation demonstf!1.t::-:: c:;:.:ity
             injections, both on loans processed in the District and at the LowDoc
             Center.

        3. 	 Please provide the necessary dO.cumentation for SBA to verify the use of
             loan proceeds on loan numbers C                  f)· 't                 J
             During the first six 16) months of this fiscal year \1 0/1101 to 3/31/02) it
             will be required that the bank provide documentation (based on policy.
             acceptable to SBA) of use of proceeds for all loans approved in the
             District or in the LowDoc Center. This documentation must be
             submitted with SBA Form 2004 after the loan has closed.

                                                                   •



r--­
4. 	 All loan service providers must provide the District office with a copy of
    . their written agreements with the bank. This will enable SSA to
      determine if any agents have served as Loan Service Providers and
      Packagers on the Same transaction. We will decline to review loan
      applications for which this situation occurs. The District will request
      that the Administrator of the SSA suspend privileges of any agents
       violating the ethical codes. contained in CFR, part 103 regarding agents
       conducting business with the SBA.

5. 	. SBA Form 159, Compensation Agreement must be provided for every 

      loan processed in the District of in the LowDoc Center. This form must 

      be presented with the application. 


The documentation required in items 1, 2 8& 3 is above and beyond the
normal items for a LowDoc loan. Should the processing center indicate to
you that this constitutes a more complex situation than they are equipped to
handle, they may suspend your LowDoc privileges at their option.

 We have been directed to document those two specific loans (noted above)
 and would appreciate you prompt attention to those items.

 Pleese feel free to call me or John Dunn, Chief. Finance· Division. if you have
 any questions in this matter.




                                  .. 	 --'-   '.~

 Francisco A. Marrero. 

 District Director 



 Cc: 	 Fred Hanus. Center Manager. LowDoc Processing Center
       Robert G. Seabrooks. Assistant Inspector General
       Jane P. Butler, A~soclClte Administrator, DFA




                                                                                   TOTAL P.02
.---~---------------------------------------------------------------~
 '




                                                                                                                    APPENDIXC 





                                             AUDIT REPORT DISTRIBUTION



             Recipient                                                                                         Number of Copies



        Associate Deputy Administrator for Capital Access .................................................1 


        Associate Administrator for Financial Assistance .....................................................1 


        Associate Administrator for Field Operations .......................................................... .1 


        Financial Administrative Staff.. ................................................................................. 1 

         Attention: Jeff Brown 


        General Counsel .........................................................................................................2 


        General Accounting Office ........................................................................................1 


        Net I st National Bank ................................................................................................. 1 

